No. 19-1141
In the Supreme Court of the Anited States

 

ATLANTIC TRADING USA, LLC, ET AL., PETITIONERS
ve

BP P.L.C., ET AL., RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that Respondents’ Brief
in Opposition contains 8,998 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Amanda Flug -

SULLIVAN & CROMWELL LLP
1700 New York Avenue, NW
Suite 700

Washington, DC 20006

(202) 956-7500
davidoffa@sullerom.com

Executed on April 27, 2020.
